<html>
<title> - MARKUP OF H. RES. 202: COMMITTEE FUNDING RESOLUTION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
          MARKUP OF H. RES. 202: COMMITTEE FUNDING RESOLUTION

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                          HOUSE ADMINISTRATION

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             MEETING HELD IN WASHINGTON, DC, MARCH 1, 2007

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html

                      U.S. GOVERNMENT PRINTING OFFICE
35-720 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 




                   COMMITTEE ON HOUSE ADMINISTRATION

           JUANITA MILLENDER-McDONALD, California, Chairwoman
ROBERT A. BRADY, Pennsylvania        VERNON J. EHLERS, Michigan,
ZOE LOFGREN, California                Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN DAVIS, California


          MARKUP OF H. RES. 202: COMMITTEE FUNDING RESOLUTION

                              ----------                              


                        THURSDAY, MARCH 1, 2007

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 4:05 p.m., in room 
1310, Longworth House Office Building, Hon. Juanita Millender-
McDonald (chairwoman of the committee) presiding.
    Present: Representatives Millender-McDonald, Capuano, 
Gonzalez, Davis, Ehlers, Lofgren and McCarthy.
    Staff Present: Charles Howell, Chief Counsel; Matt Pinkus, 
Professional Staff/Parliamentarian; and Kristin McCowan, Chief 
Legislative Clerk.
    The Chairwoman. The committee will now come to order. Good 
afternoon. I do recognize a quorum is present. With that, I 
wanted to just say that the chairpersons whom I spoke with 
today, while they were a little, well not disgruntled, but they 
were a little disappointed with the very slight increase, they 
accepted it very well. They were very gracious, and so we are 
very pleased that all committee budgets are now in.
    With that, I call up House Resolution 202, the primary 
expense resolution for House Committees for the 110th Congress. 
It is available in the Members' packets if they choose to 
review that. Without objection, the Resolution will be 
considered as read and open to amendment at any time.
    [The information follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairwoman. The Chair will now offer the Chair's mark, 
an amendment in the nature of a substitute, which is in the 
Members' packet.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Are there any objections to dispensing with 
the reading of the amendment? Hearing none, the Chair now 
recognizes herself for 5 minutes to speak on the amendment.
    I am going to forgo that. I think, as I said earlier, the 
Chairs were very cordial and were amenable to the slight 
increase that we are giving them. All budgets are in, and all 
of the Chairs have now consented to their budgets. So we are 
able to move forward.
    I would like to thank the Members of this Committee who 
were so diligent in staying for all those long hours yesterday. 
I think it was the Ranking Member who said he had no idea we 
would finish in one day, but indeed, we did, and it was quite a 
leap. Nevertheless, here we are now to mark this up, and send 
this to the Floor in the form of a resolution. This is an 
omnibus package.
    Without objection, the previous question is ordered on the 
amendment in the nature of a substitute. The question is on the 
amendment. All those in favor say aye. Those opposed, no.
    The ayes have it, and the amendment is agreed to.
    Now I would like to recognize Mr. Gonzalez to offer a 
motion.
    Mr. Gonzalez. Thank you very much, Madam Chair, and I would 
move that the Committee report House Resolution 202 favorably 
to the House with an amendment.
    The Chairwoman. Thank you. The question is on the motion to 
report favorably. Before I take the ayes and nays, I will defer 
to the Ranking Member for his comments.
    Mr. Ehlers. Thank you, Madam Chair.
    First of all, congratulations on putting this together, and 
congratulations also on our joint effort to resolve the 
difficulties yesterday. I am pleased that issue was resolved. I 
do have to say, and this is certainly no reflection on you, 
that I am not particularly happy with the budget. I am not 
happy with the entire budget process this year. I suspect that 
is true of everyone in this committee, majority or minority 
party. This is simply not a good way to do business, and I 
think, given that, the entire situation we have had to endure 
this year, I think that this committee and especially you, 
Madam Chair, have done the best job that we could do, given the 
difficulties. So I would certainly vote for this, but I hope in 
the future that the entire budget process will be more rational 
so that we, in fact, can do a better job in this committee of 
allocating resources to the committees. The committees are the 
backbone of the Congress, and most people don't realize that. 
If they don't have the funds to operate, basically the people 
of this nation have lost their voice in properly operating the 
government. We essentially defer to the administration to run 
it the way they want because we don't have the funds to keep 
track of it and allocate properly and do the oversight that is 
necessary in each and every one of our committees. So, as I 
say, this is not a great way to do it, but we did the best we 
could under the circumstances; I think next year will certainly 
be better. Maybe the only bright spot of this is that, with all 
these budgeting problems, the Members of Congress didn't get a 
pay increase, so that provides extra money for the rest of the 
government, including the committees. That probably is not a 
very popular thing to say in front of my colleagues, but 
nevertheless, we did save the government some money on that. 
With that, I would yield back, and I thank the Chair for her 
work on this.
    The Chairwoman. Thank you so much, Mr. Ranking Member. You 
are right. None of us are pleased with the budget and the very 
small amount we gave the Chairpersons. But then those are the 
things we have to live with when things aren't going the way 
that we wanted them to go. But we do have fiscal year 2008, and 
perhaps something will come from that.
    Now there is a motion on the floor to report this out 
favorably. All those in favor say aye. Those opposed say no.
    The ayes have it. The motion is agreed to. Without 
objection, a motion to reconsider is laid on the table.
    Mr. Ehlers, you might want to take this opportunity to file 
your minority views.
    Mr. Ehlers. I certainly would be pleased with that.
    Madam Chair, I just wanted to rise, pursuant to clause 2(l) 
of rule XI, I announce that I am requesting the two additional 
calendar days provided by that rule during which members may 
file additional views.
    The Chairwoman. The Chair notes that the gentleman has 
exercised his right to seek time to file views. Without 
objection, staff may be authorized to make any technical or 
conforming changes to the resolution prior to filing. That does 
it for us. If there is nothing else--
    Mr. Capuano. Motion to adjourn.
    The Chairwoman. This committee is adjourned.
    [Whereupon, at 4:12 p.m., the committee was adjourned.]

</pre></body></html>
